No. 20·8

3fn the Supreme £Court of the Initeb States
DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL.,

Petitioners,
V.

ROBERT R. MCCORMICK FOUNDATION, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Joshua S. Bolian, a member of
the Bar of this Court, hereby certify that the Supplemental Brief For Petitioners In
Response To Brief For The United States As Amicus Curiae in the above-captioned
case contains 2,944 words, excluding the parts of the Brief that are exempted by
Supreme Court Rule 33.1d).

I declare under penalty of perjury that the foregoing is true and correct.

Joshua S. Bolian
Dated: March 31, 2021

